Ms. Bailey Roese

May 21, 2020

Ms. Bailey Roese
Dentons Bingham Greenebaum LLP
101 S. 5th Street, 3500 PNC Tower
40202

Louisville, KY
(502) 587-3522

Mr. Geoffrey M. Young
454 Kimberly Place
Louisville, KY 40503

Kelly Stephens, Clerk
Supreme Court of Kentucky
State Capitol, Room 235
700 Capital Avenue
Frankfort, KY 40601

Rebecca Combs Lyon, Clerk
Kentucky Court of Appeals
360 Democrat Drive
Frankfort, KY 40601
Daniel Cameron, Attorney General
Kentucky State Capitol
700 Capital Avenue,Suite 188
Frankfort, KY 40601

